a

WAIVER
SUPBEME COURT OF THE UNITED STATES
Supreme Court Case No.

Wade Robertson

20-17
v.

Richard A. Honn, et al.
(Respondent)

(Petitioner)

I DO NOfI INTEND TO FILE A BESPONSE to the petition for
by the Court.

a

writ of certiorari udess one is requested

Please check the appropriate boxes:
Please enter my appearance as Counsel of Reeord for all respondents.

[|

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Coulsel of Record for the following respondent(s):

See Attached List

E I am a member

n

of the Bar of the Supreme Court of the United States.

I am not presently a member of the Bar of this Court. Should a response be requested, the
will be filed by a Bar member.

response

Signature
Date:

July tb ,2020
Robert G. Retana
iI Mr. [J ]ls. fj Xlrs. I Miss
Office of General Counsel, The State Bar of California

(Type or print) Name

Address

180 Howard Street

City & eroro
Phone

San Francisco, California

415-538-2337

Email

94105-1617
robert. retana@ calbar. ca. gov

A COPY OF THIS FORM MUST BE SENT TO PE?ITIONER'S COUNSEL OR TO PETITIONER
TF PBO SE. PLEASE INDICATE BELOW THE NAME(S) OT THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

[lc:

wade Robertson
P.O. Box 20185
Stanford CA 94309

